No. 20-5764

In the Supreme Court of the United States
RODNEY BERRYMAN, SR., Petitioner,
v.
ROBERT K. WONG, Respondent.

CERTIFICATE OF SERVICE BY MAIL
I, Ryan B. McCarroll, Deputy Solicitor General, a member of the Bar of this
Court hereby certify that on December 23, 2020, a copy of the BRIEF IN
OPPOSITION in the above-entitled case was mailed, first class postage prepaid to:
Rodney Berryman, Sr.
CDCR #E-03500
San Quentin State Prison
San Quentin, CA 94974
In Pro Per

Saor E. Stetler
Attorney at Law
P.O. Box 2189
Mill Valley, CA 94942-2189

Tim Brosnan
Attorney at Law
P.O. Box 2294
Mill Valley, CA 94941
I further certify that all parties required to be served have been served.
s/ Ryan B. McCarroll
RYAN B. MCCARROLL, Deputy Solicitor
General
Office of the Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 210-7668
Counsel for Respondent

